            ALLEGATIONS RELATING TO THE
       PROCUREMENT OF A REPORT MODULE FOR THE
           COMPOSITE HEALTH CARE SYSTEM II


Report No. D-2001-038               January 29, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD
  Home Page at www.dodig.osd.mil or contact the Secondary Reports Distribution
  Unit of the Audit Followup and Technical Support Directorate at (703) 604-8937
  (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CHCS                  Composite Health Care System
GSA                   General Services Administration
VA                    Department of Veterans Affairs
IPT                   Integrated Product Team
MDPR                  Medical Defense Partnership for Reinvention
                       Office of the Inspector General, DoD
Report No D-2001-038                                              January 29, 2001
  (Project No. D2000LF-0030)

      Allegations Relating to the Procurement of a Report Module
                for the Composite Health Care System II

                               Executive Summary

Introduction. This audit was performed in response to allegations made to the DoD
Hotline on potential procurement violations involving an ad hoc report module for the
Composite Health Care System (CHCS) II. CHCS II is a second-generation clinical
information system designed to generate and maintain a comprehensive computer-based
patient record for each military health system beneficiary. The ad hoc report module of
CHCS II allows the user to create reports of choice by “drilling down” into an
individual patient’s record or a series of patient records. The total cost of the ad hoc
report module and related business licenses is projected to be about $17.2 million
through FY 2006.

Objective. The audit objective was to evaluate the DoD Hotline allegations relating to
the procurement of an ad hoc report module from a systems integrator. The
complainant alleged that:

       •   the Government elected to procure one vendor’s ad hoc report module
           despite substantial evidence and pricing in support of competing vendors’ ad
           hoc report modules;

       •   the Government created a contracting arrangement whereby a systems
           integrator was somehow involved with the contract award; and

       •   the Government used an alternative Government agency (Department of
           Veterans Affairs) in some role in the procurement.

Results. Two of the three allegations regarding potential procurement violations
involving an ad hoc report module for CHCS II were substantiated; however, there was
no adverse effect because the actions were not improper. The allegation that the
Government elected to procure one vendor’s ad hoc report module, despite substantial
documentation supporting another vendor’s product, was unsubstantiated. The
allegation that the Government created a contracting arrangement using a systems
integrator was substantiated; however, that action was in accordance with Government
regulations and had no adverse effect on the selection of the ad hoc report module. The
CHCS II Program Office used a prime contractor that was one of 1,600 General
Services Administration contractors on a federal supply schedule that provide
information technology services to the Federal Government. In accordance with the
terms of a delivery order, the prime contractor provided systems integration services
that included evaluation and selection of the ad hoc report module. The allegation that
the Government used the Department of Veterans Affairs in some role in the
procurement was substantiated; however, there was no adverse effect. The contracting
office for the Department of Veterans Affairs North Texas Health Care System, Dallas,
Texas, was designated by the General Services Administration as the servicing
contracting office to process CHCS II delivery orders with the prime contractor. See
the Finding section for details.

Management Guidance. On October 26, 2000, the Program Executive Officer for the
Office of Information Management, Technology, and Reengineering published
additional guidance for CHCS II and other Information Management, Technology, and
Reengineering personnel. The overall concept of the guidance is that establishing
formal processes and responsibilities for interfacing with contractor personnel, and
providing appropriate training, will improve the contracting process. Specifically, the
guidance requires the formation of a contracts management function to provide
procedural oversight to the contracting process. See the Finding section for a summary
of the guidance and Appendix C for the full text of the guidance.

Management Comment. We provided a draft of this report on November 7, 2000.
No written response to this report was required, and none was received. Therefore, we
are publishing this report in final form.




                                           ii
Table of Contents

Executive Summary                               i


Introduction
     Background                                1
     Objective                                 2

Finding
     Procurement of the Ad Hoc Report Module   3

Appendixes
     A. Audit Process
         Scope and Methodology                  9
         Prior Coverage                        10
     B. Chronology of Events                   11
     C. Management Guidance                    12
     D. Report Distribution                    15
Background
    The audit was performed in response to allegations to the DoD Hotline on
    potential procurement violations involving an ad hoc report module for the
    Composite Health Care System (CHCS) II. CHCS II is a follow-on system to
    CHCS, and is designed to support the military health system in the delivery of
    high quality and readily accessible health care services. The CHCS II Program
    Office was established in August 1996 as part of the TRICARE Management
    Activity.

    Program Office. The CHCS II Program Office is tasked with implementing the
    DoD military health system information management and information
    technology strategic objectives. The mission of the Program Office is to acquire
    and maintain a computer-based clinical information system, which will facilitate
    the provision of quality health services to members of the Armed Forces, their
    families, and others entitled to DoD health care.

    Composite Health Care System II. CHCS II is a second-generation clinical
    information system that provides patient data management and communications
    capabilities. Areas supported by CHCS II include appointment scheduling and
    coordination; patient registration, admission, disposition, and transfer; and
    quality control and test reporting. CHCS II will generate and maintain a
    comprehensive, historical patient record for each military health system
    beneficiary.

    CHCS II is being planned and released in phases. CHCS II Increment 1 served
    as a risk reduction, planning segment to identify required business processes and
    workflow changes and to capture health care provider feedback and “lessons
    learned.” CHCS II Release 1, which is intended to be a deployable product,
    successfully completed the laboratory portion of Developmental Test and
    Evaluation in June of 2000. Developmental Test and Evaluation site testing in
    an operational environment is underway and is scheduled for completion in the
    second quarter of FY 2001. Operational Test and Evaluation of CHCS II
    Release 1 is scheduled for the third quarter of FY 2001, and a decision
    supporting worldwide deployment of CHCS II Release 1 is anticipated in the
    fourth quarter of FY 2001.

    Ad Hoc Report Module. The DoD Hotline allegation involved the
    procurement of a CHCS II ad hoc report module. Ad hoc reports allow users to
    create reports of choice by “drilling down” into an individual patient’s record or
    a series of patient records. Ad hoc reports are generally for users whose report
    requirements vary from day to day or week to week. They are one-time
    information requests and enable users to conduct trend analysis, generate
    management information reports, and select target audiences.




                                        1
Objective
    The audit objective was to evaluate the DoD Hotline allegations relating to the
    procurement of an ad hoc report module from a systems integrator (a prime
    contractor). Specifically, the complainant alleged that the Government elected
    to procure one vendor’s ad hoc report module despite substantial evidence and
    pricing in support of competing vendors’ ad hoc report modules. The
    complainant also alleged that the Government created a contracting arrangement
    whereby a systems integrator was somehow involved with the contract award
    and that the Government used an alternative Government agency (Department of
    Veterans Affairs [VA]) in some role in the procurement. See Appendix A for a
    discussion of the audit process and prior coverage.




                                       2
           Procurement of the Ad Hoc
           Report Module
           Two of the three allegations regarding potential procurement violations
           involving the ad hoc report module for CHCS II were substantiated;
           however, there was no adverse effect because the actions were not
           improper. The allegation that the Government elected to procure one
           vendor’s ad hoc report module, despite substantial documentation
           supporting another vendor’s product, was unsubstantiated. It appears that
           the complainant misunderstood the contracting process. A systems
           integrator (prime contractor), and not the Government, selected the ad hoc
           report module. In addition, there was no indication that the Program
           Office exerted any influence on the prime contractor to contract with a
           particular vendor. The allegation that the Government created a
           contracting arrangement using a systems integrator was substantiated;
           however, the action was in accordance with Government regulations. The
           allegation that the Government used the VA in some role in the
           procurement was substantiated; however, there was no adverse effect.


Contracting History
    In 1997, the General Services Administration (GSA) awarded a contract to a
    prime contractor to perform information technology services for components of
    the Federal Government. The VA North Texas Health Care System contracting
    office in Dallas, Texas, was designated by GSA as the servicing contracting
    office to process delivery orders with the prime contractor. On
    March 23, 1999, the CHCS II Program Office determined that the prime
    contractor provided highly specialized systems integration services at the level
    of quality desired for CHCS II. On April 1, 1999, the VA issued a delivery
    order that required the prime contractor to identify, evaluate, and recommend an
    optimal combination of software programs for integration into CHCS II. The
    delivery order required the contractor to compare integration candidates with
    respect to functionality, performance, and interoperability, and to prioritize the
    integration candidates using the results of those comparisons. The prime
    contractor’s efforts included evaluation and selection of the ad hoc report
    module.

    The Government approved the prime contractor’s proposal in September 1999.
    Approval of the proposal connoted Program Office agreement with the software
    solutions in the proposal. On September 30, 1999, the VA issued a separate
    delivery order that required the prime contractor to furnish the recommended
    software licenses for use with the ad hoc report module.

    The following figure illustrates the established funding and ordering relationship
    of the Program Office, the VA contracting office, the prime contractor, and
    vendors.




                                        3
          CHCS II
          Program                     Department of             Systems Integrator
          Office                      Veterans Affairs          (prime contractor)



                                     Final Product
             CHCS II                                              Vendor


     CHCS II Ordering Process


     The Program Office expects to fund delivery orders for third party software
     with the prime contractor totaling about $65.6 million through FY 2006. On
     September 30, 1999, the VA contracting office placed a $3.5 million delivery
     order with the prime contractor, obligating FY 1999 funds that were transferred
     from the Program Office. About $284,000 of the $3.5 million order was
     applicable to the ad hoc report module. From October through December 1999,
     the Program Office processed three modifications to the delivery order through
     the VA contracting office for continuing systems integration requirements that,
     combined, totaled $9.9 million of FY 2000 funds. The ad hoc report module
     portion totaled $2.8 million. The total cost of the ad hoc report module and
     related business licenses is projected to be about $17.2 million through
     FY 2006.


Evaluation of the Allegations
     Allegation 1. The complainant alleged that the Government (the CHCS II
     Program Office) elected to procure one vendor’s ad hoc report module despite
     substantial evidence and pricing in support of competing vendors’ ad hoc report
     modules. The allegation was unsubstantiated.

     The Program Office did not have vendor selection authority; the prime
     contractor did. There was no indication that the Program Office exerted any
     influence on the prime contractor to contract with a particular vendor. The
     prime contractor independently evaluated three ad hoc report modules and
     included the top-ranked product as part of its software solution proposal for
     systems integration. The vendor selection was based on a technical evaluation
     that met CHCS II requirements and was determined to be in the Government’s
     best interests.

     A low price was not a determining factor and the selection was not subject to
     price comparison. All three vendors were on the GSA federal supply schedule
     and GSA had already determined that prices of items under schedule contracts
     were fair and reasonable.




                                         4
     Additionally, price reasonableness was further ensured because subsequent
     negotiations resulted in prices lower than those shown on the federal supply
     schedule for the selected vendor’s ad hoc report module.

     By placing an order, the Program Office acknowledged that the prime
     contractor’s selection represented the Government’s best interests. However,
     Program Office personnel continued communications with a non-selected vendor
     after the Program Office had concurred with the prime contractor’s proposal.
     The communications might have created an appearance that the vendor selection
     for the ad hoc report module was ongoing.

     Allegation 2. The complainant alleged that the Government had created a
     contracting arrangement whereby a prime contractor was somehow involved
     with the award. The allegation was substantiated; however, the action was not
     improper and there was no adverse effect on the selection of the ad hoc report
     module. The use of a prime contractor to provide information and technology
     systems integration services is a common business practice in the Federal
     Government. The GSA Federal Systems Integration and Management Center
     provided information technology support to the Program Office and coordinated
     the selection of the prime contractor for systems integration services. The
     prime contractor was one of 1,600 GSA contractors on a federal supply schedule
     that provide information technology services to the Federal Government.

     Allegation 3. The complainant alleged that the Government had also used an
     alternative Government agency in some role in the procurement. Although the
     allegation was substantiated, the use of a third party servicing contracting office
     was not improper and there was no adverse effect. The VA North Texas Health
     Care System contracting office is the liaison office to the prime contractor, as
     designated by GSA.


Discussion
     Prime Contractor Technical Evaluation. On June 23, 1999, the prime
     contractor completed a technical evaluation of the ad hoc report modules. The
     evaluation was based on the following criteria.

             •   Ad Hoc Reporting – The ease with which the software can create ad
                 hoc reports.

             •   Visual Basic Interface – The flexibility and ease that the report
                 module can interface with Visual Basic.

             •   Ease of Use – The ease of using the ad hoc report capability for
                 administration and reporting requirements.

             •   Security – The ability to secure database information and prevent
                 unauthorized use of the CHCS II system.

             •   Architecture – General architecture of the system and its ability to
                 integrate into the military health system.


                                          5
Each of the technical evaluation criterion was given a numerical weight that was
applied to three competing vendors’ ad hoc report module products for
CHCS II. The total weighted scores are shown in the following table.


        Evaluation Results for CHCS II Ad Hoc Report Modules

          Vendor               Evaluation Score       Total Possible Score
            A                           880                  1,000
            B                           835                  1,000
            C                           525                  1,000

The results of the prime contractor’s technical evaluation were conveyed to
Program Office acquisition personnel in June 1999. The prime contractor
submitted its licensing and software integration proposal to the Program Office
on September 15, 1999, proposing selection of Vendor A’s ad hoc report
module and business licenses.

Independent Laboratory User Evaluation. On August 24, 1999, the Program
Office’s Architectural Integrated Product Team (IPT) approved a user evaluation
of ad hoc report modules from the three competing vendors. The user
evaluation was performed by the Medical Defense Partnership for Reinvention
(MDPR), an independent laboratory at Scott Air Force Base, Illinois. The
MDPR was established under the National Partnership for Reinventing
Government and is tasked to assist in the deployment of available commercial
technology. The MDPR used two of the five criteria that were used by the
prime contractor in its technical evaluation (Ad Hoc Reporting and Ease of
Use). On September 21, 1999, the MDPR published its evaluation, “Ad Hoc
Report Module Evaluation for CHCS II,” and conveyed its recommendation to
the IPT that the Program Office pursue negotiations for Vendor B’s ad hoc
report module. The report did not dispute the capability of any of the three
vendors’ products to meet established CHCS II requirements. The MDPR
evaluation for the IPT provided additional information for Program Office
managers to use in evaluating and deciding on the prime contractor’s proposal.
Results of the user evaluation, showing that users preferred Vendor B, were
considered and evaluated by Program Office personnel.

Program Office Decision Process. On September 27, 1999, the CHCS II
Project Officer issued his “White Paper on CHCS II Report Ad Hoc Writer
Selection.” The Project Officer recommended concurrence with the prime
contractor’s proposed procurement of Vendor A’s ad hoc report module
product. His recommendation was based on evaluation of the prime contractor’s
technical review, the MDPR user evaluation, and the best value for the
Government. The CHCS II Program Manager subsequently concurred with that
recommendation. Concurrence with the prime contractor’s recommendation
resulted in the issuance of a delivery order accepting the prime contractor’s
proposal of Vendor A’s product. A chronology of events related to the ad hoc
report module procurement is in Appendix B.




                                    6
    Continued Program Office Communications. After the VA issued the initial
    delivery order for Vendor A’s ad hoc report module, Program Office personnel
    continued communications with a non-selected vendor (Vendor B). That might
    have created an appearance that the ad hoc report module selection was ongoing.

    Despite accepting the prime contractor’s proposal that included an ad hoc report
    module and initiating action that culminated in ordering report modules for test
    sites, Program Office personnel continued to meet with Vendor B personnel
    about ad hoc report module requirements. At Vendor B’s request, on
    September 30, 1999, the CHCS II Program Manager met with Vendor B
    personnel. On October 5, 1999, Vendor B sent a letter to the Program
    Executive Officer, Office of Information Management, Technology, and
    Engineering, detailing its concerns regarding the award of the delivery order for
    the ad hoc report module. At that time, Vendor B may have believed that the
    decision on future purchases of the ad hoc report module could be changed. On
    October 8, 1999, Vendor B representatives met with the Program Executive
    Officer and, according to available correspondence, the Program Executive
    Officer agreed to review the decision. No action was taken to reverse the
    Program Office decision as a result of those meetings, but continued
    communications with Vendor B after selection of Vendor A were unnecessary
    and might have contributed to the allegations being made.


Conclusion
    The Program Office followed appropriate procurement procedures before
    approving the ad hoc report module recommendation from its prime contractor.
    However, after the Program Office initiated action for the delivery order that
    included Vendor A’s ad hoc report module, Program Office personnel continued
    communications with Vendor B. Continued communications with Vendor B
    might have given the appearance that the ad hoc report module selection was an
    ongoing competition. Continued communications occurred because not all
    Program Office personnel were fully informed of the CHCS II systems
    integration process or fully trained in system acquisition procedures.


Management Guidance
    Program Office personnel recognized that they could improve the procurement
    management process. In early 2000, the CHCS II Program Manager
    implemented mandatory training requirements for all DoD personnel and
    support contractors assigned to the Program Office. Specifically, the Program
    Manager required that all personnel receive computer-based acquisition training
    and that Project Officers receive contracting officer technical representative
    training.

    As a result of the audit, on October 26, 2000, the Program Executive Officer
    published additional guidance for CHCS II and other Information Management,
    Technology, and Reengineering personnel. The overall concept of the guidance


                                        7
is that establishing formal processes and responsibilities for interfacing with
contractor personnel, and providing appropriate training, will improve the
contracting process.

The Program Executive Officer’s guidance should preclude discussions with
prospective contractors without the advance knowledge and approval of the
contracting officer. The guidance requires the formation of a contracts
management function to provide procedural oversight to the contracting process.
In addition, the guidance established contract management training requirements
for personnel with decisionmaking authority. The guidance also established
procedures and responsibilities for employees who interact with vendor and
contractor personnel. For example, Program Office procedures now require
calls from vendors to be processed by designated personnel for followup or
forwarding to appropriate acquisition personnel. See Appendix C for the full
text of that guidance.

Because of the actions taken by management, we are not making any
recommendations.




                                     8
Appendix A. Audit Process

Scope and Methodology
    Our review focused on Program Office actions for procurement of the ad hoc
    report module. We examined contractual statements of work, source selection
    decisions, monthly progress reports, technical and user evaluation results, and
    miscellaneous correspondence. We did not evaluate the adequacy of the
    technical and user evaluations. The procurement actions reviewed covered June
    through December 1999.

    We reviewed documentation and interviewed personnel at the Program Office,
    GSA, the MDPR, the VA North Texas Health Care System, the prime
    contractor, and subcontractors who were in competition for the ad hoc report
    module contract.

    We did not review the management control program because the scope of the
    audit was limited to a procurement selection that was based on a
    recommendation from a non-DoD systems integrator (the prime contractor).

    DoD-Wide Corporate Level Coverage. In response to the Government
    Performance and Results Act, the Secretary of Defense annually establishes
    DoD-wide corporate level goals, subordinate performance goals, and
    performance measures. This report pertains to achievement of the following
    subordinate performance goal.

           FY 2001 Subordinate Performance Goal 2.3: Streamline the DoD
           infrastructure by redesigning the Department’s support structure and
           pursuing business practice reforms. (01-DoD-2.3)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    established performance improvement reform objectives and goals. This report
    pertains to achievement of the following Health Care Functional Area objective
    and goal.

           Objective: Technology integration. Goal: Plan for, assess, obtain,
           install, and maintain technologies to provide cost-beneficial,
           interoperable solutions to meet military health system requirements.

    High-Risk Area. The General Accounting Office has identified several
    high-risk areas in the DoD. This report provides coverage of the Information
    Management and Technology high-risk area.

    Use of Computer-Processed Data. We did not rely on computer-processed
    data to perform this audit.




                                       9
    Audit Type, Dates, and Standards. We performed this program audit from
    May 2000 through October 2000 in accordance with auditing standards issued
    by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD and other Federal agencies, including DoD
    contractors. Further details are available on request.


Prior Coverage
    Inspector General, DoD, Report No. 99-068, “Acquisition Management of the
    Composite Health Care System II Automated Information System,”
    January 21, 1999




                                     10
Appendix B. Chronology of Events
   A partial chronology of events related to the procurement of the ad hoc report
   module follows.

   June 23, 1999. The prime contractor completed a report on a technical
   evaluation of ad hoc report modules for CHCS II. Two products met system
   requirements and were closely ranked. The third product did not provide ad hoc
   report capabilities and was ranked significantly lower.

   August 24, 1999. The Architectural IPT approved a user evaluation of the ad
   hoc report module products. Ad hoc report modules from three vendors were
   scheduled for evaluation by MDPR, based on user input from military treatment
   facilities. The MDPR evaluation team consisted of 12 personnel from the 375th
   Medical Group at Scott Air Force Base and one MDPR staff member who
   works with the 375th Medical Group. The evaluation team included military
   treatment facility administrators, installers, and users. Two of the five criteria
   used in the prime contractor’s technical evaluation were evaluated by the
   MDPR.

   September 15, 1999. The prime contractor submitted a proposal for integrating
   commercial, off-the-shelf software products in CHCS II. The proposal
   recommended Vendor A’s ad hoc report module, which was identified in the
   June 23, 1999, report as the top-ranked product.

   September 21, 1999. The MDPR provided the Architectural IPT the user
   evaluation report, “Ad Hoc Report Module Evaluation for CHCS II.” The
   MDPR recommended Vendor B’s ad hoc report module.

   September 27, 1999. The CHCS II Project Officer issued his “White Paper on
   CHCS II Report Ad Hoc Writer Selection” and stated his agreement with the
   prime contractor’s proposed procurement of Vendor A’s ad hoc report module.
   He recommended concurrence with the proposal, based on his evaluation of the
   prime contractor’s technical review, the MDPR user evaluation, and the best
   value for the Government. The CHCS II Program Manager concurred with the
   Project Officer’s recommendation, completing the last step in the review of the
   prime contractor’s licensing and software integration proposal.

   September 30, 1999. The VA contracting office in Dallas, Texas, placed a
   $3.5 million delivery order with the prime contractor, obligating FY 1999 funds
   transferred from the Program Office. About $284,000 of the $3.5 million order
   was applicable to the report module. The delivery order was placed using the
   blanket purchase agreement developed by the VA that had established ordering
   and delivery order processing procedures with the prime contractor.




                                       11
Appendix C. Management Guidance




                 12
13
     Attachments
     omitted




14
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Health Affairs)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                          15
Audit Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report. Personnel of the Office of the
Inspector General, DoD, who contributed to the report are listed below.

Shelton R. Young
Michael A. Joseph
Timothy J. Tonkovic
Robert J. Hanlon
Douglas L. Jones
Mary J. Gibson
Anna P. Martin
Steven J. Epps
